No. 20-5068
IN THE
SUPREME COURT OF THE UNITED STATES
Li Qin Petitioner in Pro Per
vs.
Barbara Kong-Brown et al. Respondents

PROOF OF SERVICE
I, Liao Zhang, do swear or declare that on this date, Nov 13, 2020, as
required by Supreme Court Rule 29 I have served the enclosed
(1) Petition for Rehearing (Corrected form for resubmit)
On each party to the above proceeding or that party's counsel, and on
every other person required to be served, by depositing an envelope containing
the above documents in the United States mail properly addressed to each of
them and with U.S. first-priority postage prepaid.
The names and addresses of those served are as follows:
(1) Mark Giovanni Bonino
Hayes, Scott, Bonino, Ellingson,
Guslani, Simonson & Clause LLP.
999 Skyway Road Suite 310
San Carlos, CA 94070

I declare under penalty of perjury that the foregoing is true and correct.
Executed on Hawthorne City California
Nov 13, 2020 Liao Zhang (Signature

Certificates of [Petition for Rehearing]

Additional material
from this filing is
available in the
Clerk's Office.

